No. 21A-51
IN THE
SUPREME COURT OF THE UNITED STATES
ERNEST JOHNSON – PETITIONER,
V.
PAUL BLAIR – RESPONDENT.
PROOF OF SERVICE
I, Charles A. Weiss, hereby declare that on this date, October 5, 2021, as
required by Supreme Court Rules 29 and 37 I have served the enclosed MOTION
FOR LEAVE TO FILE BRIEF FOR AMICI CURIAE RETIRED MISSOURI JUDGES
IN SUPPORT OF PETITIONER’S APPLICATION FOR STAY OF EXECUTION and
MOTION FOR LEAVE TO FILE BRIEF ON 8 ½ BY 11-INCH PAPER, including the
attached BRIEF FOR AMICI CURIAE RETIRED MISSOURI JUDGES IN
SUPPORT OF PETITIONER, on the parties’ counsel by email and by depositing a
properly addressed envelope containing the above documents in the United States
mail with first-class postage prepaid.
The names and addresses of those served are as follows:
Larry Komp
Supervisor, Capital Habeas Unit
Federal Public Defender Office
Western District of Missouri
1000 Walnut – Suite 600
Kansas City, MO 64106
Counsel for Petitioner
Gregory Goodwin
Deputy Chief Counsel, Public Safety Section
221 W. High Street
P.O. Box 899
Jefferson City, MO 65102-0899
Counsel for Respondent

